                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF JOB CORPS
                                              CENTER OPERATING COSTS
                                              For the Period October 1, 2004 – March 31, 2005



                                               This audit report was prepared by M.D. Oppenheim & Company, P.C.,
                                               under contract to the U.S. Department of Labor, Office of Inspector
                                               General, and by acceptance, it becomes a report of the Office of
                                               Inspector General.



                                                                              Assistant Inspector General for Audit




                                                                         Date Issued: September 29, 2006
                                                                         Report Number: 03-06-005-01-370
U.S. Department of Labor                              September 2006
Office of Inspector General
Office of Audit
                                                      Performance Audit of Job Corps
                                                      Center Operating Costs For the period
BRIEFLY…                                              October 1, 2004 – March 31, 2005

Highlights of Report Number: 03-06-005-01-370, a      WHAT OIG FOUND
report to the Administrator of Job Corps.
                                                      Overall, Job Corps’ contractors complied with
WHY READ THE REPORT                                   laws, regulations, and Job Corps’ policies and
                                                      procedures related to Center operating costs.
M.D. Oppenheim & Company, under contract to           However, the auditors did identify two areas of
the U.S. Department of Labor, Office of Inspector     noncompliance that related to specific contractor
General, conducted a performance audit of Job         operations and one area of noncompliance that
Corps Center operating costs at 12 contractor-        was a crosscutting issue found at several Centers.
operated Centers for the period October 2004
through March 2005. Center operating costs are        Specifically, we found:
reported monthly to the Office of Job Corps on
Form ETA-2110, Job Corps Center Financial                 •   there was a lack of adequate internal
Report, and include direct Center expenses such               controls over program expenditures at the
as Center staff salaries, student food, student               Earle C. Clements Job Corps Center;
clothing, utilities, and medical expenses, as well
as contractor fees and indirect general and               •   there was improper recording and
administrative expenses. The audit was                        reporting of indirect administrative costs at
performed in conjunction with the audit of the U.S.           the Jacksonville Job Corps Center; and
Department of Labor’s Consolidated Financial
Statements for Fiscal Year 2005.                          •   journal entries were not properly
                                                              approved, adequately supported, or
WHY OIG CONDUCTED THE AUDIT                                   correctly recorded at five Job Corps
                                                              Centers.
The OIG conducted the audit to determine
whether Job Corps’ contractors are complying with     Instances of noncompliance such as these can
laws, regulations, and Job Corps’ policies and        result in overbilling to the government and an
procedures for Center operating costs.                increased possibility of fraud through the
                                                      manipulation of accounting records.
        READ THE FULL REPORT
To view the report, including the scope,              WHAT OIG RECOMMENDED
methodology, and full agency response, go to
                                                      We recommended that the National Director of
http://www.oig.dol.gov/public/reports                 Job Corps require that the contractors operating
/oa/2006/03-06-005-01-370.pdf                         the Earle C. Clements Job Corps Center and the
                                                      Jacksonville Job Corps Center take corrective
                                                      actions to correct the problems identified during
                                                      our audit, including the repayment of funds not
                                                      spent properly. We also recommended that the
                                                      National Director of Job Corps require all Job
                                                      Corps Centers to have written policies and
                                                      procedures for the preparation, documentation,
                                                      recording and approval of all journal entries made
                                                      to Centers’ books of accounts.

                                                      In response to the draft audit report, the Job Corps
                                                      National Director agreed to implement the report’s
                                                      recommendations.
                                                      Performance Audit of Job Corps Center Operating Costs




Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ............................................................................................... 3
INDEPENDENT AUDITORS’ REPORT ......................................................................... 5
RESULTS AND FINDINGS............................................................................................ 5
    Overall, Job Corps Contractors Complied With Laws, Regulations,
    and Job Corps Policies and Procedures Related to Center Operating Costs ... 5

    There Was a Lack of Adequate Internal Controls Over Program
    Expenditures at the Earle C. Clements Job Corps Center ................................... 6

    There Was Improper Recording and Reporting of Indirect
    Administrative Costs at the Jacksonville Job Corps Center .............................. 8

    Journal Entries Were Not Properly Approved, Adequately Supported, or
    Correctly Recorded at Five Job Corps Centers ................................................... 9

EXHIBIT
    A. Job Corps Centers Tested.............................................................................. 15
APPENDICES

    A. Background ...................................................................................................... 19

    B. Objective, Scope, and Methodology............................................................... 21

    C. Criteria............................................................................................................... 23

    D. Follow-up on Prior Audit Findings.................................................................. 25

    E. Acronyms and Abbreviations.......................................................................... 27

    F. Agency Response to Draft Report .................................................................. 29




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                            1
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs


Executive Summary
M.D. Oppenheim & Company, under contract to the U.S. Department of Labor, Office of
Inspector General, conducted a performance audit of Job Corps Center operating costs
at 12 contractor-operated Centers for the period October 2004 through March 2005.
Center operating costs are reported monthly to the Office of Job Corps on Form ETA-
2110, Job Corps Center Financial Report, and include direct Center expenses such as
Center staff salaries, student food, student clothing, utilities, and medical expenses, as
well as contractor fees and indirect general and administrative expenses. The audit
was performed in conjunction with the audit of the U.S. Department of Labor’s
Consolidated Financial Statements for Fiscal Year 2005.

The audit was conducted to answer the following question:

       Are Job Corps’ contractors complying with laws, regulations, and Job Corps’
       policies and procedures for Center operating costs?

Results

Overall, Job Corps’ contractors complied with laws, regulations, and Job Corps’ policies
and procedures related to Center operating costs. However, the auditors did identify
two areas of noncompliance that related to specific contractor operations and one area
of noncompliance that was a crosscutting issue found at several Centers. Specifically,
we found:

   •   there was a lack of adequate internal controls over program expenditures at the
       Earle C. Clements Job Corps Center;

   •   there was improper recording and reporting of indirect administrative costs at the
       Jacksonville Job Corps Center; and

   •   journal entries were not properly approved, adequately supported, or correctly
       recorded at five Job Corps Centers.

Instances of noncompliance such as these can result in overbilling to the government
and an increased possibility of fraud through the manipulation of accounting records.

Recommendations

We recommend that the National Director of Job Corps required that:

1. Career Systems Development/ Del-Jen (CSD/DJ) Joint Venture perform periodic
   audits of significant payments made by the Earle C. Clements Job Corps Center to
   ensure they are properly reviewed and approved.

Prepared by M.D. Oppenheim & Company, P.C., for the                                       3
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs


2. CSD/DJ Joint Venture take the necessary steps to ensure that effective fiscal
   controls over expenditures have been designed and implemented at the Earle C.
   Clements Job Corps Center.

3. CSD/DJ Joint Venture refund the government all late fee payments made to IKON
   Financial Services.

4. Dynamic Education Systems, Inc., adhere to the terms of its contract related to
   charging indirect costs for the Jacksonville Job Corps Center.

5. Dynamic Education Systems, Inc., record the full cost of Center operations, including
   indirect costs, in the books of account for the Jacksonville Job Corps Center.

6. Dynamic Education Systems, Inc., refund the $20,029 in indirect costs claimed
   through March 31, 2005, in excess of its current negotiated indirect cost rate and
   refund excess indirect costs claimed through subsequent periods for the
   Jacksonville Job Corps Center.

7. Each Center have written policies and procedures for the preparation,
   documentation, recording, and approval of all journal entries made to the Centers’
   books of account and that corrective actions are taken by the Job Corps Centers to
   address the deficiencies reported. Because this issue was found to exist at other
   Job Corps Centers in the prior year, our recommendation now extends to include all
   Job Corps Centers.

Agency Response

In response to the draft report, the National Director of Job Corps agreed to the
recommendations.

OIG Conclusion

The recommendations will be resolved as part of Job Corps’ audit resolution process.




4                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs




Mr. Elliot P. Lewis
Assistant Inspector General
  for Audit
200 Constitution Avenue, Suite S-5512
Washington D.C. 20210

We conducted a performance audit of Job Corps Center (JCC) operating costs at 12
contractor-operated Centers for the period October 2004 through March 2005. (See
Exhibit A for locations.) Center operating costs are reported monthly to the Office of
Job Corps on Form ETA-2110, Job Corps Center Financial Report, and include direct
Center expenses such as Center staff salaries, student food, student clothing, utilities,
and medical expenses, as well as contractor fees and indirect general and
administrative expenses.

We conducted the audit to answer the following question:

   •   Are Job Corps’ contractors complying with laws, regulations, and Job
       Corps’ policies and procedures for Center operating costs?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendices B and C.

Results and Findings

Overall, our audit found that Job Corps’ contractors complied with laws, regulations, and
Job Corps’ policies and procedures related to Center operating costs. However, the
auditors did identify two areas of noncompliance that related to specific contractor
operations and one area of noncompliance that was a crosscutting issue found at
several Centers.




Prepared by M.D. Oppenheim & Company, P.C., for the                                         5
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs



Objective − Are Job Corps’ contractors complying with laws, regulations, and Job
Corps’ policies and procedures for Center operating costs?

Finding 1 − There Was a Lack of Adequate Internal Controls Over Program
Expenditures at the Earle C. Clements Job Corps Center

Our testing of non-personnel expenditures found three invoices that were not properly
reviewed and approved before payment and two payments that included late fees. This
occurred because of inadequate monitoring by the contractor operating Earle C.
Clements JCC, CSD/DJ Joint Venture, to ensure procedures were followed. As a
result, the contractor over-billed $1,717 to the contract during the audit period.

Title 20 of the Code of Federal Regulations (CFR), part 638.808, Center Financial
Management and Reporting, states:

       The Job Corps Director shall establish procedures to ensure that
       each Center operator and each subcontractor maintain a financial
       management system that will provide accurate, complete, and
       current disclosures of the financial results of Job Corps operations,
       and will provide sufficient data for effective evaluation of program
       activities. Fiscal accounts shall be maintained in a manner that
       ensures timely and accurate reporting as required by the Job Corps
       Director.

Additionally, the Federal Acquisition Regulation (FAR), 31.201-2, states a cost is
allowable only when the cost complies with all of the following requirements:
        (1) Reasonableness.
        (2) Allocability.
        (3) Standards promulgated by the CAS Board, if applicable, otherwise, generally
            accepted accounting principles and practices appropriate to the
            circumstances.
        (4) Terms of the contract.
        (5) Any limitations set forth in this subpart.

We tested 20 significant (greater than $5,000) non-personnel expenditures and we
found the following three invoices totaling $74,316 that were not properly reviewed and
approved before they were paid.

                                  Vendor                   Amount
                       EMC Construction Group, LLC        $ 5,500
                       Kentucky Utilities Co.              36,921
                       GSA                                 31,895

We also found two additional invoices paid to IKON Financial Services for monthly
copier charges of $5,980 for February and March 2005. Each invoice included late fees
6                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

of $286. We reviewed the general ledger and determined that these late fees had been
paid for 4 of the 6 months of our audit period for a total of $1,145. It is our opinion that
these late fees are unallowable because they are not reasonable. FAR 31.201-3, states
in part, that a cost is reasonable if, in its nature and amount, it does not exceed that
which would be incurred by a prudent person in the conduct of competitive business. It
is our opinion that late fees would not be incurred by a prudent person in the conduct of
competitive business.

We concluded that the contractor staff was not adequately reviewing and approving
invoices each month to ensure payments were being made timely and late charges
were not incurred. This also indicates a lack of adequate monitoring by the CSD/DJ
Joint Venture who is charged with maintaining adequate fiscal controls over funds at
Earle C. Clements JCC.

A system of sound internal controls and good business practices requires proper
management approval for all fiscal transactions to mitigate the potential for fraud and
improper payments.

Management stated they would remind finance staff of the importance of obtaining
proper signature authorizations prior to payment of invoices, and that the CSD/DJ Joint
Venture Controller would be asked to perform audits of significant invoices.
Management also stated they would review why the late payments occurred and deduct
them from the next monthly vendor payment or charge the cost to the corporate office.
Recommendations 1, 2, 3
We recommend that the Job Corps Administrator require CSD/DJ Joint Venture to:

1. perform periodic audits of significant payments made by the Center to ensure they
   are properly reviewed and approved;

2. take the necessary steps to ensure that effective fiscal controls over expenditures
   have been designed and implemented at the Center; and

3. refund the government all late fee payments made to IKON Financial Services.

Agency Response

In response to the draft audit report, the National Director of Job Corps agreed to
implement the recommendations.

Auditor Conclusion

The recommendations will be resolved as part of Job Corps’ audit resolution process.




Prepared by M.D. Oppenheim & Company, P.C., for the                                        7
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs

Finding 2 − There Was Improper Recording and Reporting of Indirect
Administrative Costs at the Jacksonville Job Corps Center

The Jacksonville JCC’s general ledger did not include the indirect administrative costs
of the Center. Instead, the indirect costs were posted directly to the ETA-2110 from the
corporate general ledger. In addition, the rate utilized for reporting these costs was
higher than the approved negotiated provisional rate with the government for the audit
period. As a result, the Jacksonville JCC’s general ledger did not reconcile to the ETA -
2110 and the contractor over-billed the contract $20,029.

Title 20 CFR, part 638.808, Center Financial Management and Reporting, states:

       The Job Corps Director shall establish procedures to ensure that each Center
       operator and each subcontractor maintain a financial management system that
       will provide accurate, complete, and current disclosures of the financial results of
       Job Corps operations, and will provide sufficient data for effective evaluation of
       program activities.

Job Corps’ Policies and Requirements (PRH) Chapter 5: Financial Management,
Appendix 502 states:

       Indirect Administrative Expense includes the cost of the contractor’s
       general and administrative expenses at the rate specified in the Center
       contract or the current approved rate, whichever is lower.

While the indirect cost rate stated in the original Center contract budget was 7 percent,
the contract indicated that an approved/negotiated provisional rate would be used once
that rate was negotiated and approved with the government.

The approved/negotiated indirect cost rate for our audit period was 6 percent. However,
Dynamic Educational Systems, the Center contractor, utilized a rate of 6.7 percent for
reporting purposes on the ETA-2110. Therefore, the JCC is billing indirect costs at a
higher rate than the provisional rate approved/negotiated with the government. Our
testing found that billings for indirect costs for the 6 month audit period ending
March 31, 2005, totaled $191,709 (6.7 percent). Had the negotiated rate of 6 percent
been applied for the same period, indirect costs would have totaled $171,680 or
$20,029 less than the amount invoiced.

The contractor indicated that it is using the 6.7 percent rate because they believe it to
be closer to what the actual final rate will be rather than using the provisional rate
negotiated with the government.

As a result of the improper billing of indirect administrative costs on the ETA-2110, the
contractor overbilled DOL during our audit period for indirect costs. In addition, the lack
of compliance with contract terms and the lack of “accurate and complete” recording of

8                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

the full cost of operations in the Center’s books of account increases the risk of fraud
due to the manipulation of the financial reporting process.

Recommendations 4, 5, 6

We recommend that the Job Corps Administrator require that Dynamic Educational
Systems, Inc.:

4. adhere to the terms of its contract related to charging indirect costs;

5. record the full cost of Center operations, including indirect costs, in the Center’s
   books of account; and
6. refund the $20,029 in indirect costs claimed through March 31, 2005, in excess of its
   current negotiated indirect cost rate and refund excess indirect costs claimed
   through subsequent periods.

Agency Response

In response to the draft audit report, the National Director of Job Corps agreed to
implement the recommendations.

Auditor Conclusion

The recommendations will be resolved as part of Job Corps’ audit resolution process.

Finding 3 − Journal Entries Were Not Properly Approved, Adequately Supported,
or Correctly Recorded at Five Job Corps Centers

At 5 of the 12 JCCs audited, we found that journal entries were not properly approved,
lacked detailed documentation to support the propriety of the journal entries, or were
incorrectly recorded. None of these five JCCs had written policies and procedures
specifically addressing journal entries. This issue was also reported in the prior year as
a control weakness at several other JCCs. Strong internal controls over the journal
entry process are important to ensure the accuracy of the financial records and to
reduce the potential for fraud due to the manipulation of accounting information.

Title 20 CFR, part 638.808, Center Financial Management and Reporting, states:

       The Job Corps Director shall establish procedures to ensure that each Center
       operator and each subcontractor maintain a financial management system
       that will provide accurate, complete, and current disclosures of the financial
       results of Job Corps operations, and will provide sufficient data for effective
       evaluation of program activities. Fiscal accounts shall be maintained in a
       manner that ensures timely and accurate reporting as required by the Job
       Corps Director.

Prepared by M.D. Oppenheim & Company, P.C., for the                                        9
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs


In addition, Statement on Auditing Standards Number 99, Consideration of Fraud in a
Financial Statement Audit, states that material misstatements of financial information
often involve the manipulation of the financial reporting process by (a) recording
inappropriate or unauthorized journal entries, or (b) making adjustments to amounts
through consolidating adjustments and reclassifications.

As this finding was also reported in fiscal year (FY) 2004, related to several other JCCs,
we concluded that the control weaknesses in this area represent a systemic weakness
in the Job Corps program. In the current year, we specifically noted the following:

     Name of Job
     Corps Center                       Explanation of Errors Noted
                       The payroll and payroll tax accrual journal entry examined
                       (one of five journal entries tested), which was automatically
     Cascades
                       generated by the accounting system, was not reviewed or
                       approved by accounting department management.

                       One of the five journal entries examined which related to a
     Gadsden           correction of an accrual for insurance ($49,236) on
                       December 31, 2004, was not documented.

                       One of seven journal entries examined was approved by the
     Gary
                       same person that prepared the entry.

                       None of the five journal entries examined showed evidence of
     Jacksonville      being reviewed or approved by either the Center accounting
                       department management or by the corporate contractor.

                       None of the five journal entries examined were reviewed or
     San Jose          approved by either the Center accounting department
                       management or by the corporate contractor.

Recommendation 7

7. We recommend that the National Director for the Office of Job Corps require that
   each Center have written policies and procedures for the preparation,
   documentation, recording, and approval of all journal entries made to the Centers’
   books of account and that corrective actions are taken by the JCCs to address the
   deficiencies reported. Because this issue was found to exist at other JCCs in the
   prior year, our recommendation now extends to include all JCCs.

Agency Response

In response to the draft audit report, the National Director of Job Corps agreed to
incorporate appropriate language in the PRH addressing this recommendation.

10                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs


Auditor Conclusion

The recommendation will be resolved when Job Corps provides a corrective action plan
specifying the action to be taken and the implementation date.




January 27, 2006




Prepared by M.D. Oppenheim & Company, P.C., for the                                      11
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs




Exhibits




Prepared by M.D. Oppenheim & Company, P.C., for the                                      13
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                                EXHIBIT A

                     Job Corps Centers Tested
   Job Corps Center                 Location                        Contractor
                            Sedro Woolley,
  1. Cascades                                           Management and Training Corp.
                            Washington
       Earle C.                                         Career Systems Development /
  2.                        Morganfield, Kentucky
       Clements                                         Del-Jen Joint Venture

  3. Gadsden                Gadsden, Alabama            Adams and Associates


  4. Gary                   San Marcos, Texas           Management and Training Corp.

                            San Bernardino,
  5. Inland Empire                                      Management and Training Corp.
                            California
                                                        Dynamic Educational Systems,
  6. Jacksonville           Jacksonville, Florida
                                                        Inc.

  7. Keystone               Drums, Pennsylvania         Management and Training Corp.


  8. Loring                 Limestone, Maine            Training and Development Corp.


  9. Los Angeles            Los Angeles, California     YWCA of Greater Los Angeles

                                                        Career Systems Development
 10. Northlands             Vergennes, Vermont
                                                        Corp.

 11. Pittsburgh             Pittsburgh, Pennsylvania    ResCare, Inc.

                                                        Career Systems Development
 12. San Jose               San Jose, California
                                                        Corp.




Prepared by M.D. Oppenheim & Company, P.C., for the                                      15
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs




Appendices




Prepared by M.D. Oppenheim & Company, P.C., for the                                      17
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                             APPENDIX A
Background

The Job Corps program is authorized under Title I, Subtitle C of the Workforce
Investment Act of 1998. The Office of Job Corps, a component of the U.S. Department
of Labor (DOL), administers the program.

The Job Corps program is a highly intensive, primarily residential training program for
severely disadvantaged youth, ages 16 through 24. The program provides skills and
academic training, social education, and other support to over 65,000 participants at
122 Centers.

Job Corps operates two types of facilities: (1) contractor-operated Centers, and (2)
Civilian Conservation Centers. There are currently 94 contractor-operated Centers run
by 28 for-profit corporations or nonprofit organizations. There are 28 Civilian
Conservation Centers that are operated by either the U.S. Department of Agriculture’s
Forest Service or the U.S. Department of Interior’s National Park Service or Bureau of
Reclamation.

Job Corps is financed through annual congressional appropriations that are divided into
three components: (1) operating costs; (2) facility construction, rehabilitation, and
acquisition (CRA) expenses for existing facilities; and (3) capital facility funds for the
construction of newly approved Centers. Operating costs are appropriated with 1-year
obligation availability, while capital facility and CRA expenses are appropriated with 3-
year obligation authority. Annual funding for operating expenses normally represents
roughly 90 percent of the total Job Corps appropriation, with CRA expenses normally
comprising 10 percent. Total FY 2005, Job Corps funding was $1,551,860,000
comprised of $1,435,670,000 for operations and $116,190,000 for CRA expenses.

Operating costs are reported by the Center operator monthly to the Office of Job Corps
on Form ETA-2110, Job Corps Center Financial Report, and include direct Center
expenses such as Center staff salaries, student food, student clothing, utilities, and
medical expenses, as well as contractor fees and indirect general and administrative
expenses.

This audit is performed annually in conjunction with the audit of the DOL’s Consolidated
Financial Statements, and the results incorporated into the FY 2005, DOL’s
Performance and Accountability Report.




Prepared by M.D. Oppenheim & Company, P.C., for the                                       19
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

                                       APPENDIX B
Objective, Scope, and Methodology

We conducted a performance audit of 12 contractor-operated JCCs for the period
October 2004 through March 2005, in order to determine whether Job Corps’
contractor-operated Centers are complying with laws, regulations, and Job Corps’
policies and procedures for the reporting of operating costs. The audit was performed
in conjunction with the audit of the U.S. Department of Labor’s Consolidated Financial
Statements for Fiscal Year 2005.

A performance audit includes obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls considered significant to the audit were
properly designed and placed in operation.

The scope of the audit consisted of evaluating Center costs, as reported on Form ETA -
2110, Job Corps Center Financial Report, for compliance with applicable laws,
regulations, and Job Corps policies and procedures for the period October 2004 through
March 2005. Specific areas evaluated at each Center included general financial
procedures, Center staff payroll costs, and non-personnel costs.

We conducted fieldwork from May 2005 to January 2006.

Internal Controls

Our work on established internal controls included reviewing policies and procedures
and Center contract documents, as well as interviewing key personnel. We gained an
understanding of how the data flows in each audit area and documented a description
of the controls. Our testing of internal controls was focused only on the controls related
to the audit objective and was not intended to form an opinion on the adequacy of
internal controls overall, and we do not render such an opinion. Weaknesses noted in
the testing are discussed in Findings 1 and 3 of this report.

Compliance with Laws and Regulations

We performed attribute testing at each JCC visited using both statistical and non-
statistical sampling. In order to determine compliance with the laws and regulations
cited in Appendix C of the report, we performed detailed tests of transactions that
included both analytical review and substantive tests of accounts.

Our testing related to compliance with laws and regulations was focused only on the
laws and regulations relevant to the audit objective and was not intended to form an
opinion on compliance with laws and regulations as a whole, and we do not render such
an opinion. Instances of noncompliance are discussed in Finding 2.

Prepared by M.D. Oppenheim & Company, P.C., for the                                      21
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs

Sampling

The total universe of costs for our audit was $465,604,085, which consisted of Center
operating costs reported on the ETA-2110 for the 94 contractor-operated JCCs during
the period October 2004 through March 2005. The 12 JCCs we visited accounted for
$88,975,113 of the universe of costs for our audit. Costs excluded from our audit were
costs associated with: the 28 Civilian Conservation Centers; student pay and
allowances; capital facility cost for existing and new Centers; and contractor costs for
student outreach, admissions and placement. We also passed on testing certain ETA-
2110 line items in order to focus our testing on more material line items. All of these
costs have been excluded from both the universe of costs above and our projections.

To test the reliability of the costs in our audit, we employed a two-tiered sampling
methodology. First, a statistical sample of 12 JCCs was randomly selected as part of a
5-year audit plan, developed in conjunction with the audit of DOL’s Consolidated
Financial Statements. Second, statistical samples of financial transactions were
selected for substantive and compliance testing. Sample items were selected randomly
from ETA-2110 line items for all months during the audit period. We reviewed
supporting documentation such as time sheets, time cards, invoices, vouchers,
purchase orders, and receipts. In addition, non-statistical sampling techniques were
utilized for certain phases of testing to target higher dollar or higher risk items. The
errors we found as a result of our substantive and attribute testing were immaterial in
nature and we concluded that the areas tested were low risk.

Auditing Standards

Our audit was conducted in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Those
standards require that in planning and performing a performance audit, we use an
objective and systematic examination of evidence for the purpose of providing an
independent assessment of the performance of contractor-operated JCCs.

An audit made in accordance with these standards provides reasonable assurance that
its objectives have been achieved; but it does not guarantee the discovery of illegal
acts, abuse, or all internal control weaknesses. We believe our audit provides a
reasonable basis for the auditors’ assessment and conclusions.

The conclusions provided in this report are the result of our performance audit for the
period October 2004 through March 2005. Changes in management of the program,
including changes in controls or laws, regulations, and other compliance requirements
could result in performance that would be different from the performance during that
period. This report should not be used to evaluate performance results of future
periods.

This performance report is a matter of public record.


22                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                             APPENDIX C
Criteria

We used the following criteria to perform this audit:

   •   Center Contracts

   •   Center Operating Procedures

   •   20 CFR 638.800 Program Management

   •   20 CFR 638.801 Staff Training

   •   20 CFR 638.808 Center Financial Management and Reporting

   •   20 CFR 638.810 Reporting Requirements

   •   PRH – Chapter 5 Management

   •   PRH – Chapter 5, Appendix 502, Center Financial Management

   •   Federal Acquisition Regulation (FAR), Parts 1-18

   •   FAR, Part 31, Subpart 2, Cost Principles for Commercial Organizations

   •   ETA Property Management Handbook No. 359

   •   Statement on Auditing Standards No. 99




Prepared by M.D. Oppenheim & Company, P.C., for the                                      23
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs


                                                                             APPENDIX D
Follow-up on Prior Audit Findings

The current status of prior Job Corps audit findings is reported in the U.S. Department
of Labor FY 2005, Performance and Accountability Report (see page 277).




Prepared by M.D. Oppenheim & Company, P.C., for the                                       25
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                             APPENDIX E
Acronyms and Abbreviations


                   CFR          – Code of Federal Regulations

                   CRA          – Construction, Rehabilitation, and Acquisitions

                   DOL          – U.S. Department of Labor

                   ETA          – Employment and Training Administration

                   FY           – Fiscal Year

                   JCC          – Job Corps Center

                   PRH          – Policy and Requirements Handbook




Prepared by M.D. Oppenheim & Company, P.C., for the                                      27
U.S. Department of Labor—Office of Inspector General
Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs

                                                        APPENDIX F


AGENCY RESPONSE TO DRAFT REPORT




Prepared by M.D. Oppenheim & Company, P.C., for the             29
U.S. Department of Labor—Office of Inspector General
Draft Report No03-06-005-01-370
Performance Audit of Job Corps Center Operating Costs




30                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-06-005-01-370
